TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                   Controls Over Partial Payment Installment
                         Agreements Can Be Improved



                                            May 6, 2013

                              Reference Number: 2013-30-040




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend:
 1 = Tax Return/Return Information
 2 = Risk Circumvention of Agency Regulation or Statute


 Phone Number | 202-622-6500
 E-mail Address | TIGTACommunications@tigta.treas.gov
 Website        | http://www.treasury.gov/tigta
                                                     HIGHLIGHTS


CONTROLS OVER PARTIAL PAYMENT                            occur in eight (10 percent) of the 84 PPIAs
INSTALLMENT AGREEMENTS CAN BE                            requiring a two-year review. If the automated
IMPROVED                                                 review process determines that the financial
                                                         condition of the taxpayer may have improved, a

Highlights
                                                         manual review is required. However, the
                                                         manual reviews were not performed properly for
                                                         15 (52 percent) of the 29 PPIA cases for which a
Final Report issued on May 6, 2013                       manual review was required. IRS procedures
                                                         do not require managers to review or approve
                                                         the results of the two-year review of PPIAs.
Highlights of Reference Number: 2013-30-040
to the Internal Revenue Service Commissioners            In addition, 15 (15 percent) of 100 PPIAs
for the Small Business/Self-Employed Division            sampled were established without a complete
and the Wage and Investment Division.                    financial analysis. Without a complete financial
                                                         analysis, there is a higher risk that the taxpayers
IMPACT ON TAXPAYERS                                      are not paying the maximum amount they can
Taxpayers who enter into a Partial Payment               afford or that they are unable to afford the
Installment Agreement (PPIA) will not fully pay          amount in the agreement. Further, 34
all of their delinquent tax liability, so it is          (34 percent) of the 100 PPIAs did not have
important that PPIAs are carefully and                   evidence that the manager approved the PPIA.
accurately administered. However, the IRS is             The absence of documented manager approval
not always properly monitoring or establishing           indicates that the managers are not reviewing
PPIAs. If the IRS does not effectively pursue            the PPIAs before they are established.
collection of unpaid tax through the use of              The IRS Collection Process Study report
PPIAs, it could create an unfair burden on the           recommended that the IRS expand the use of
majority of taxpayers who fully pay their taxes on       PPIAs by offering a modified minimum PPIA to
time.                                                    all individual taxpayers in uncollectible status.
WHY TIGTA DID THE AUDIT                                  The report estimated that if PPIAs were offered
                                                         to 230,000 individual taxpayers classified as
Because taxpayers with PPIAs will not fully              unable to pay, the collection potential could be
satisfy their delinquent tax liability, it is critical   as high as $69 million annually. TIGTA was
that they pay the maximum amount determined              advised that the IRS does not have plans to
by a complete financial analysis. This audit was         implement this recommendation due to limited
initiated to determine whether the IRS was               resources.
following procedures when establishing and
monitoring PPIAs.                                        WHAT TIGTA RECOMMENDED

WHAT TIGTA FOUND                                         TIGTA made recommendations to improve
                                                         controls over the two-year review process and
When establishing a PPIA, the IRS is required to         establishment of PPIAs. TIGTA also
complete a financial analysis of the taxpayer and        recommended that management test the viability
assess the financial condition of taxpayers with         of expanding the use of PPIAs on a sample of
a PPIA every two years. TIGTA reviewed a                 taxpayers in uncollectible status.
random sample of 100 PPIAs and found that the
two-year reviews were not always properly                In its response to the report, the IRS agreed with
performed and that some PPIAs were                       most of TIGTA’s recommendations. IRS officials
established without a complete financial analysis        plan to revise procedures to improve controls
and/or manager approval.                                 over the two-year review process and the
                                                         establishment of PPIAs. The IRS did not agree
To begin the two-year financial assessment, the          to test the viability of expanding the use of
IRS performs an automated review process of              PPIAs. However, its disagreement was based
PPIAs at the two-year mark. However, the                 on results from a different program which TIGTA
automated two-year review processes did not              does not believe is comparable.
                                            DEPARTMENT OF THE TREASURY
                                                 WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                             May 6, 2013


 MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION
                COMMISSIONER, WAGE AND INVESTMENT DIVISION


 FROM:                       Michael E. McKenney
                             Acting Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Controls Over Partial Payment Installment
                             Agreements Can Be Improved (Audit # 201230010)

 This report presents the results of our review to assess the controls over and effectiveness of the
 Partial Payment Installment Agreement program. This audit is included in our Fiscal Year 2013
 Annual Audit Plan and addresses the major management challenge of Tax Compliance
 Initiatives.
 Management’s complete response to the draft report is included as Appendix VII. Copies of this
 report are also being sent to the Internal Revenue Service managers affected by the report
 recommendations.
 If you have any questions, please contact me or Augusta R. Cook, Acting Assistant Inspector
 General for Audit (Compliance and Enforcement Operations).
                                               Controls Over Partial Payment
                                         Installment Agreements Can Be Improved




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 4
          Controls Are in Place to Help Guide Collection Program
          Employees to Establish and Monitor Partial Payment
          Installment Agreements ................................................................................ Page 4
          Two-Year Reviews Were Not Always Properly Performed ......................... Page 6
                    Recommendations 1 and 2: .............................................. Page 10

          Partial Payment Installment Agreements Were
          Established Without a Complete Financial Analysis or
          Manager Approval ........................................................................................ Page 10
                    Recommendation 3:........................................................ Page 13

                    Recommendations 4 through 6:......................................... Page 14

          Partial Payment Installment Agreements Can Increase
          Collections on Uncollectible Inventory ........................................................ Page 15
                    Recommendation 7:........................................................ Page 16


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 18
          Appendix II – Major Contributors to This Report ........................................ Page 22
          Appendix III – Report Distribution List ....................................................... Page 23
          Appendix IV – Outcome Measures .............................................................. Page 24
          Appendix V – Financial Analysis Example .................................................. Page 26
          Appendix VI – Glossary of Terms ................................................................ Page 27
          Appendix VII – Management’s Response to the Draft Report ..................... Page 30
              Controls Over Partial Payment
        Installment Agreements Can Be Improved




              Abbreviations

AMS     Account Management Services
CPS     Collection Process Study
FY      Fiscal Year
IA      Installment Agreement
ICS     Integrated Collection System
IDRS    Integrated Data Retrieval System
IRM     Internal Revenue Manual
IRS     Internal Revenue Service
NQRS    National Quality Review System
OIC     Offer In Compromise
PPIA    Partial Payment Installment Agreement
TPI     Total Positive Income
TIGTA   Treasury Inspector General for Tax Administration
                                           Controls Over Partial Payment
                                     Installment Agreements Can Be Improved




                                              Background

All taxpayers are expected to immediately pay delinquent tax liabilities in full. When this is not
possible, taxpayers may be allowed to pay their liabilities over a prescribed period of time. If
full payment cannot be achieved by the Collection Statute Expiration Date,1 and taxpayers have
some ability to pay, the Internal Revenue Service (IRS) and taxpayer can enter into a Partial
Payment Installment Agreement (PPIA).
PPIAs were enacted by the American Jobs Creation Act of 2004.2 In a PPIA, the taxpayer makes
regular monthly payments to the IRS, but the payments do not pay off the tax debt in full. After
the terms of the PPIA are fulfilled, the IRS is prohibited from collecting the remainder of the tax
debt because the collection statute will have expired. PPIAs provide taxpayers with another
alternative to settle their tax obligations.
Prior to the enactment of the American Jobs Creation Act of 2004, taxpayers who could not
immediately fully pay their tax liabilities could enter into installment agreements (IA) with the
IRS only to fully pay their tax liabilities within the Collection Statute Expiration Date. A
taxpayer who could not fully pay could also request an offer in compromise (OIC) to pay a
portion of the tax liability. A PPIA is an alternative that
allows the taxpayer to pay a portion of their obligations over
a period of time.                                                        The number of PPIAs
                                                                     established has steadily
The number of PPIAs established has steadily increased                increased since their
since their inception in Fiscal Year (FY) 2005. Figure 1              inception in FY 2005.
shows that new PPIAs increased 132 percent from FY 2008
to FY 2011.




1
    See Appendix VI for a glossary of terms.
2
    Pub. L. No. 108-357, 118 Stat. 1418 (2004).
                                                                                             Page 1
                                      Controls Over Partial Payment
                                Installment Agreements Can Be Improved



                    Figure 1: PPIA Activity From FY 2008 to FY 2011




         Source: FY 2008 through FY 2011 Collection Activity Reports.

During the same period, the delinquent tax liability pertaining to new PPIAs increased more than
163 percent, totaling more than $4 billion in FY 2011.
Similar to regular IAs, the taxpayers must make their monthly payments on time and remain
compliant with all of their tax obligations during the term of the PPIA. If a taxpayer does not
make two monthly payments, the IRS sends the taxpayer a letter instructing him or her to contact
the IRS. If the taxpayer contacts the IRS, the IRS must attempt to get the taxpayer back on track.
If the taxpayer does not contact the IRS or does not make another payment, the taxpayer defaults
on the PPIA and the PPIA is terminated. A default notice is sent to the taxpayer explaining the
reasons for terminating the PPIA and the corrective actions the taxpayer can take. Figure 2
shows the default rates for PPIAs and regular IAs from FY 2009 to FY 2012.




                                                                                           Page 2
                                        Controls Over Partial Payment
                                  Installment Agreements Can Be Improved



                  Figure 2: PPIA Default Rates From FY 2009 to FY 2012




     Source: The IRS calculation of IA and PPIA default rates.

As Figure 2 illustrates, the default rate for IAs has remained relatively steady over the four-year
period, while the PPIA default rate has nearly doubled. In FY 2012, the PPIA default rate was
more than 12 percentage points higher than regular IAs.
Our audit was a follow-up to a review completed in FY 2007.3 This audit was performed at the
Small Business/Self-Employed Division Headquarters in New Carrollton, Maryland, during the
period February through July 2012. We conducted this performance audit in accordance with
generally accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit objective.
Detailed information on our audit objective, scope, and methodology is presented in Appendix I.
Major contributors to the report are listed in Appendix II.




3
 Treasury Inspector General for Tax Administration (TIGTA), Ref. No, 2007-30-170, Employees Are Not Always
Ensuring That Taxpayers Pay the Maximum Amount Possible When Granting Partial Payment Installment
Agreements (Sept. 2007).
                                                                                                     Page 3
                                      Controls Over Partial Payment
                                Installment Agreements Can Be Improved




                                   Results of Review

Controls Are in Place to Help Guide Collection Program Employees to
Establish and Monitor Partial Payment Installment Agreements
Ultimately, the IRS relies on its collection employees to ensure that PPIAs are properly
established and monitored. To assist these employees in meeting this responsibility, the IRS has
developed and implemented a number of internal controls and procedures. Internal controls are
an integral component of an organization’s management because they can provide reasonable
assurance about the organization’s:
       Effectiveness and efficiency of operations.
       Reliability of financial reporting.
       Compliance with applicable laws and regulations.
The IRS has established control components within the Collection program to help ensure that
management plans and implements activities needed to attain IRS goals and objectives. For
example, the Internal Revenue Manual (IRM) is one important control component because it
contains the official compilation of detailed instructions and procedures for collection employees
to follow when establishing or monitoring PPIAs. Throughout the IRM, collection employees
are instructed to properly document in case files all aspects of their work pertaining to
establishing PPIAs. In addition, the IRM requires first-line managers to document in the case
file their approval when a PPIA is established. This documentation is important because it
provides the principal evidence that procedures were followed as well as the foundation for other
control processes such as managerial reviews and the quality measurement systems. The
importance of documentation is further emphasized in the quality measurement standards and the
Standards for Internal Control in the Federal Government.4
The IRS uses the National Quality Review System (NQRS) as its primary quality measurement
system. This system is an important control component because it identifies managerial,
technical, and procedural problems and provides a basis for corrective actions. The IRS uses the
NQRS to assess the quality of its overall IA program. Figure 3 shows that Campus Compliance
function employees establishing IAs during the three-year period ending FY 2012 consistently
scored 95 percent or higher in procedural accuracy.



4
 Government Accountability Office (formerly known as the General Accounting Office), GAO/AIMD-00-21.3.1,
Internal Control: Standards for Internal Control in the Federal Government (Nov. 1999).
                                                                                                   Page 4
                                           Controls Over Partial Payment
                                     Installment Agreements Can Be Improved



                             Figure 3: Campus Compliance Function
                     Quality Results for Establishing Installment Agreements
Fiscal     Cases                                                      Customer   Regulatory
                                                                                  g           Procedural
         Year  Reviewed        Timeliness     Professionalism         Accuracy    Accuracy      Accuracy
         2012     2,162           90%               98%                91%         99%          96%
         2011     1,727           94%               97%                90%         99%          95%
         2010     1,604           94%               99%                92%         99%          96%
     Source: TIGTA analysis of IA NQRS data for FY 2010 to FY 2012.

     A thorough review of the taxpayers’ financial condition is an important control component
     because taxpayers may be expected to pay the available equity in their assets as well as their
     disposable household income over the remaining statutory period of collection of the tax
     assessment to satisfy the tax liability. Taxpayers who are being considered for a PPIA must
     provide complete and accurate financial information. PPIAs are established in the Collection
     Field function by revenue officers and in the Campus Compliance function by Automated
     Collection System or Compliance Services Collection Operations employees (all three are
     identified collectively as “collection employees” throughout this report). Before granting a
     PPIA, collection employees perform an initial review, which consists of a complete financial
     analysis of the taxpayer’s situation, including a verification of the taxpayer’s income and assets
     and a monthly income and expenses comparison to determine the amount of disposable income
     (gross income less all allowable living expenses) available to pay the tax liability. Based on the
     initial review, the collection employee calculates the amount that the taxpayers are expected to
     pay each month. In addition, taxpayers granted PPIAs are subject to a complete financial
     analysis every two years to determine if a taxpayer’s financial condition has improved.
     Depending on the result of this two-year review, the amount of the installment payments could
     increase if the taxpayer’s financial condition has improved. In some instances, the installment
     payments may be lowered if the taxpayer’s financial condition has worsened.
     First-line managers are another important control component because they are responsible for the
     quality of work performed by the employees they supervise. Prior to establishing a PPIA, the
     first-line manager must review the case and ensure that a complete financial analysis was
     completed and the monthly payment amounts were properly calculated. The first-line manager
     must also approve the PPIA.
     To determine whether the IRS was properly performing both the initial and the two-year
     financial analyses, we reviewed a statistically valid sample of open PPIA cases. To ensure that
     we selected a sample of PPIAs that would allow verification of the two-year review, we selected
     cases that as of October 25, 2011, had an IA acceptance date between January 1, 2008, and
     July 1, 2009. There were 4,447 cases identified from which we reviewed a random sample of
     100 PPIA cases. Although we found controls in place to guide collection employees to establish
     and monitor PPIAs, our results indicate that additional steps can be taken to improve these
     controls. Specifically, we determined that:

                                                                                                   Page 5
                                          Controls Over Partial Payment
                                    Installment Agreements Can Be Improved



         The two-year reviews were not always properly performed.
         PPIAs were established without a complete financial analysis or manager approval.

Two-Year Reviews Were Not Always Properly Performed
The American Jobs Creation Act of 2004 requires the IRS to assess the financial condition of
taxpayers with a PPIA every two years. To comply with this requirement, the IRS performs an
automated review process on PPIAs at the two-year mark. Figure 4 illustrates this two-year
review process.
                         Figure 4: The PPIA Two-Year Review Process

                                                                                                        A manual 
            a
                                                                                                        review is 
    The employee              The Master File           Did the TPI                                  required and 
 inputs the PPIA into        compares the TPI            increase                                     a request is 
   the Master File,         from the year PPIA           by 6% or               Yes                     made for 
  which establishes          was established to           more?                                         updated 
     the two‐year          the current year’s TPI                                                       financial 
      review date                                                                                     information 
                                                                                                        from the 
                                                                                                        taxpayer 



                                                                                   The systemic 
                                                                  No             review reset for 
                                                                                another two years 


Source: The IRS’s Programming Requirements Package 460-48. TPI = Total Positive Income.

When the PPIA is first established, the collection employee inputs a specific computer code to
the taxpayer’s Master File account to schedule the automated two-year review process. Then, at
the two-year mark, the automated review process uses Master File data to compare the
taxpayer’s total positive income (TPI) from the income tax return filed for the year in which the
taxpayer entered into the PPIA with the TPI from the income tax return filed for the current tax
year. If this comparison determines *********************2************************,
the automated review process is reset to occur two years later. However, if the taxpayer’s TPI
***********2**************, a manual review is required. The manual review requires the
taxpayer to submit updated financial information and the IRS to perform an updated complete
financial analysis.
In our random sample of 100 PPIAs, we determined that a two-year review was not applicable
for 16 cases. The taxpayers in these PPIAs originally entered into a regular IA between
January 1, 2008, and July 1, 2009, and converted to a PPIA in FY 2010 or later. Therefore, the
two-year review was not scheduled to occur during the time of our review.

                                                                                                          Page 6
                                    Controls Over Partial Payment
                              Installment Agreements Can Be Improved



For the remaining 84 PPIAs, we determined that:
       Automated two-year reviews did not always occur.
       Required manual reviews were not always performed properly.

Automated two-year reviews did not always occur
Our review of the 84 PPIAs requiring a two-year review showed that the automated two-year
review process occurred on time in 76 (90 percent) of 84 sampled cases. However, the
automated two-year review process did not occur in eight (10 percent) of the 84 cases.
Specifically:
       In five (6 percent) of the 84 PPIAs requiring a two-year review, the employees
        establishing the PPIAs did not ensure that the taxpayers’ accounts were properly
        scheduled for the automated two-year review. Instead, the automated two-year review
        process was erroneously scheduled to occur between three to six years after the PPIA was
        established because the collection employees input the wrong computer code. We
        determined that if an automated two-year review process had been performed timely at
        two years, **********************************1****************************
        ***************1********************************************************
        ******************************************2****************************
        ********2*************** ***1***********5 **************1***************
        ************************************1********************************
        *********************************1***********************************
        ********************1***************************.6
       In three (4 percent) of the 84 PPIAs requiring a two-year review, the taxpayers defaulted
        on their PPIAs before the automated two-year review process. As a result, there was no
        automated two-year review process to determine whether the taxpayers’ financial
        condition changed. ******************************2************************
        ****************************************2*****************************
        **************************************2*******************************
        ****************************************2***************************
        ********************************************2*************************
        **************************************2********************************
        *******************************************2*************************
        ****************************************************2******************

5
  *************************************************2*******************************************
******************************2***************. See Appendix V for an example of how we performed
our financial analysis estimates.
6
  *******************************************1***********************************************
*********************************************************1********************************
                                                                                           Page 7
                                      Controls Over Partial Payment
                                Installment Agreements Can Be Improved



        *************************************2********************************
        *************************************2***************************** we
        estimate that if IRS employees had performed a manual review, **********1*********
        ******************************************1**************************
        ********************1*******. Establishing a PPIA with a payment amount that the
        taxpayer can afford helps reduce the risk that the taxpayer will again default on the PPIA.

Required manual reviews were not always performed properly
The results for the 76 cases for which the automated two-year review was timely showed that:
       In 47 (62 percent) of the 76 PPIAs, the automated two-year review process properly
        determined that no manual review was required.
       In 29 (38 percent) of the 76 PPIAs, a manual review was required. IRS procedures
        required that current financial information be obtained from these taxpayers so that a
        manual review could be performed.
Figure 5 shows the results of the 29 PPIAs for which the automated two-year review determined
that a manual review was required.
           Figure 5: Results of the PPIA Cases Requiring a Manual Review




       Source: TIGTA analysis of PPIA sample cases.




                                                                                            Page 8
                                   Controls Over Partial Payment
                             Installment Agreements Can Be Improved



      In 14 (48 percent) of the 29 PPIAs, the IRS performed a proper manual review. **1**
       ***********************1*********************************.
      In six (21 percent) of the 29 PPIAs, the taxpayers defaulted on their PPIA after the
       automated review process had been completed but before the manual review took place.
       IRS procedures require a complete financial analysis before reinstatement of a defaulted
       PPIA. ******************************2**********************************
       *******************2*************************************************
       ************2**********************************1**********************
       ********************************************1**************************
       **************************************1********************************
       ********************************************1**************************
       ***1***.
      In four (14 percent) of the 29 PPIAs, there was no evidence that the required manual
       two-year review occurred. It is possible that a manual review would have determined
       these taxpayers had the ability to increase their monthly installment amounts or that they
       could not afford their monthly installments. For example, we estimate that if IRS
       employees had performed a manual review, these four taxpayers may have had their
       payment amounts reduced. Establishing a PPIA with a payment amount that the taxpayer
       can afford helps reduce the risk that he or she will default on their PPIA.
      In three (10 percent) of the 29 PPIAs, the IRS did not perform the manual review timely.
       The manual reviews were performed between 12 and 15 months late. The manual
       reviews determined that the financial condition of the taxpayer did not improve and their
       respective monthly payments were unchanged.
    ***************************************1******************************
       ***************************************1*****************************
       ***************************************1*******************************
       *************1******.
Overall, we identified problems in 23 (27 percent) of the 84 PPIAs requiring a two-year review.
These 23 PPIAs involved more than $1.2 million in delinquent tax. Four of the 23 PPIAs had
monthly payment amounts reduced without documentation in the case files supporting the lower
payment amounts. Based on our results, we estimate that 178 taxpayers will pay a total of
$878,705 less than the amount that the financial analyses showed the taxpayers had the ability to
pay. Further, although our estimate was based only on the 4,447 PPIAs established between
January 2008 and July 2009, we found no evidence these PPIAs were established using different
procedures or controls than the full population of 97,208 open PPIAs as of October 2011.
We determined that the IRM does not provide for manager oversight of the two-year review
process. Management is not required to ensure that either the automated two-year review
process or the manual review (when warranted) occurs. In addition, the IRM does not require a
                                                                                           Page 9
                                   Controls Over Partial Payment
                             Installment Agreements Can Be Improved



manager to review or approve the results of the manual review. As a result, managers are not
aware when required two-year reviews are not completed. ******2*********************
*****************************************2********************************
******************************************2********************.
As a result, management does not have complete information about the quality of its PPIA
program. Further, when a proper two-year review is not conducted, the IRS is not complying
with the American Jobs Creation Act of 2004. The purpose of the two-year review is to
determine if the taxpayer is now capable of fully paying his or her balance due, an adjustment in
the payment amount is necessary, the agreement should continue without change, or the taxpayer
is now unable to pay. Because the automated review process checks for taxpayers whose TPI
has *************2***********, it is possible that a proper manual review would result in
taxpayers paying more than their original agreement amount.

Recommendations
The Director, Collection Policy, Small Business/Self-Employed Division, should:
Recommendation 1: Revise the IRM to require that managers ensure that automated
two-year reviews are properly scheduled and that financial analyses are performed prior to
reinstating taxpayers that default on their PPIAs.
       Management’s Response: IRS management agreed with this recommendation and
       will revise the IRM to require managers to ensure that automated two-year reviews are
       properly scheduled and to specify when financial analysis is required prior to revising or
       reinstating PPIAs.
Recommendation 2: Revise the IRM to require that the manual two-year reviews associated
with PPIAs are fully documented and reviewed and are approved by the manager.
       Management’s Response: IRS management agreed with this recommendation and
       will determine the type(s) of manual two-year review that will require management
       review and full documentation. They will also revise the IRM to include this
       information.

Partial Payment Installment Agreements Were Established Without a
Complete Financial Analysis or Manager Approval
To enter into a PPIA, the taxpayer must agree to pay the monthly installment amount determined
by a complete financial analysis. A complete financial analysis includes a monthly income and
expenses comparison and verification of the taxpayer’s income and assets. The collection
employee performing the analysis verifies the taxpayer’s income and assets using the Integrated
Data Retrieval System (IDRS) via specific command codes. These command codes provide

                                                                                          Page 10
                                     Controls Over Partial Payment
                               Installment Agreements Can Be Improved



access to information on the IRS Master File pertaining to information documents submitted by a
third party, e.g., wage statements and investment income, and tax return information. Also,
equity in assets must be addressed and, if appropriate, be used to make a payment. The financial
analysis determines the maximum monthly payment amount the taxpayer has the ability to pay.
Collection employees must obtain their manager’s approval prior to establishing a PPIA. When
approving a PPIA, the manager must review the case and ensure that a complete financial
analysis was performed.
In FY 2007, TIGTA reported7 that the IRS was not always completing a sufficient financial
analysis or verifying the taxpayer’s financial status. TIGTA recommended that the IRS
reemphasize that, when establishing PPIAs, employees need to obtain appropriate documentation
of income, verify assets, and appropriately document the verification actions in the history sheets
and case files. In response to the TIGTA report, the IRS revised PPIA procedures to clarify
instructions and emphasize documentation and verification of income and assets when working
PPIAs. We tested the effectiveness of these IRS corrective actions by reviewing our sampled
cases for the initial financial analysis. Our sample was limited to PPIA cases that were
established after the IRS’s corrective actions were implemented. We also reviewed the cases for
manager approval. Our case review results showed that IRS corrective actions were not fully
effective. Specifically, we found that some PPIAs:
       Continued to be established without a complete financial analysis.
       Were established without manager approval.

PPIAs continued to be established without a complete financial analysis
In our sample of 100 PPIAs, we determined that 15 (15 percent) were established without a
complete financial analysis. Specifically, of the 15 cases:
       Four PPIAs were established without evidence that any financial analysis was performed.
       Eleven PPIAs were established without a complete financial analysis because no required
        IDRS research was performed. IDRS research is required to verify the financial
        information provided by the taxpayer such as wages, investment income, and sources of
        financial accounts. However, employees relied upon only the financial information
        provided by the taxpayer. We reviewed the IDRS profiles for five of the employees who
        established these PPIAs, and none of the five had all the required command codes
        required to research and verify the taxpayer’s financial information.
IRS management told us that sometimes the IDRS research may not be conducted because the
employees may have obtained other information from the taxpayer, such as bank statements or

7
 TIGTA, Ref. No, 2007-30-170, Employees Are Not Always Ensuring That Taxpayers Pay the Maximum Amount
Possible When Granting Partial Payment Installment Agreements (Sept. 2007).
                                                                                               Page 11
                                         Controls Over Partial Payment
                                   Installment Agreements Can Be Improved



earning statements. However, while other sources of information may exist, substituting these
sources for verification via IDRS research is not allowable per IRS procedures. Further, only
three of the 11 cases with no IDRS research included documentation that the IRS obtained a
bank statement or earnings statements.
In addition, management reviews did not identify the problems with incomplete financial
analyses. In 12 of the 15 cases, there was evidence of manager approval. Eleven of the 12 were
cases for which proper IDRS research was not completed. However, when approving the PPIA,
the manager did not ensure that IDRS research was performed.
We estimate that if IRS employees had conducted a complete financial analysis prior to
establishing the PPIAs, ************************1*******************************
****************************************1**********************************.
***************************************1**********************************
*****************************1************************.8
When a PPIA is established without a complete financial analysis, there is a higher risk that the
taxpayers are not paying the maximum amount they can afford. There is also a higher risk that
the taxpayer cannot afford the payments in the agreement. The lack of documentation for these
cases prevented us from determining whether the taxpayer had the ability to pay more.
However, if the taxpayers make all payments required by the terms of these PPIAs, the
delinquent tax liability that the taxpayers will still owe on these 15 PPIAs will be $1,182,903.
Further, the PPIA default rate in FY 2012 nearly doubled compared to the default rate in
FY 2009. A default on a PPIA could be an indication that the taxpayer may not be in a financial
position to continue making the payments over a sustained period of time. The taxpayers in
eight of 15 sampled PPIAs without a complete financial analysis defaulted on their PPIAs. As a
result of each PPIA default, the taxpayer must pay an additional user fee9 and the IRS has to
expend additional resources to reinstate the agreement.

PPIAs were established without manager approval
In 34 (34 percent) of the 100 PPIAs reviewed, there was no evidence that the manager approved
the PPIA. These 34 PPIAs were established at the campuses. Manager approval for the PPIAs
established by the Collection Field function was adequately documented in the Integrated
Collection System (ICS). For PPIAs established at the campuses, IRS procedures require
managers document their approval in the Automated Collection System or the Account

8
  ***********************************************1*****************************************
*************************************************1************************************
***************************1*******************************.
9
  The fee is $105 for IAs entered into on or after January 1, 2007. If the taxpayer makes their installment payments
by way of a direct debit from the taxpayer’s bank account, then the fee is $52. No matter the method of payment,
the user fee is $43 if the taxpayer is a low-income taxpayer.
                                                                                                            Page 12
                                         Controls Over Partial Payment
                                   Installment Agreements Can Be Improved



Management Services (AMS) application. For the 34 cases, we did not find any evidence that
the manager reviewed or approved the PPIAs.
Our results also showed that employees may not be securing manager approval on PPIAs when
they are converted from regular IAs. Nine (26 percent) of the 34 PPIAs with no manager
approval were converted from regular IAs. IRS procedures pertaining to regular IAs are not
specific about securing manager approval when converting a regular IA to a PPIA.
Earlier in this report, we showed NQRS results for the IRS’s overall IA program. Specifically,
the NQRS reported that Campus Compliance function employees who established IAs during the
three-year period ending FY 2012 consistently scored 95 percent or higher in procedural
accuracy. However, the NQRS data are insufficient to provide management with reliable
information for evaluating overall quality, detecting error trends, or identifying possible systemic
problems with PPIAs. PPIA cases accounted for just 1.7 percent of all IAs in inventory in
FY 2012 and do not represent a separate product line so they cannot be identified in the samples
of completed work selected pertaining to IAs. We could not determine how many PPIAs were
sampled for these reviews. Similar to the NQRS, operational reviews at the campuses do not
differentiate between PPIAs and regular IAs, even though the number of PPIAs issued increased
by 132 percent over the past three years.
If managers do not review and approve the PPIAs before they are established, there is a higher
risk that PPIAs are not established properly. This condition could result in lost revenue or a
higher default rate. For example, we determined that three (9 percent) of the 34 taxpayers with
PPIAs that were not approved by a manager may have had the ability to make payments
sufficient to fully pay the balances due by their respective Collection Statute Expiration Dates.
As a result, these three taxpayers may have qualified for regular IAs, and the IRS could have
potentially collected an additional $74,188.10

Recommendations
The Director, Campus Compliance Services, Small Business/Self-Employed Division, and the
Director, Collection Policy, Small Business/Self-Employed Division, should:
Recommendation 3: Ensure that managers provide their employees with IDRS profiles that
contain the command codes required to perform their duties and ensure that managers are
knowledgeable of the command codes and how they can be used to enhance the financial
analyses performed by employees establishing PPIAs.




10
  Currently, the three taxpayers will pay a total of $142,800 with their PPIAs. However, based on our financial
analysis estimate, the three taxpayers would qualify for regular IAs. As a result, the three taxpayers would
potentially pay the full amount owed for a total of $216,988.
                                                                                                          Page 13
                                   Controls Over Partial Payment
                             Installment Agreements Can Be Improved



       Management’s Response: IRS management agreed with this recommendation and
       will revise the appropriate IRM sections to include language directing managers to ensure
       that employees have the proper IDRS command codes necessary to perform their
       assigned tasks and required research. Additionally, IRS management will review the
       IDRS command codes relative to the role of supporting documentation and revise the
       IRM to address the types of documentation that can be used in lieu of specific IDRS
       command code research.
       Office of Audit Comment: In their response, IRS management asserted that our
       findings may not be indicative of current case work because of the date range of our
       sampled PPIA cases (which was necessary to review the two-year review process).
       However, IRS management could not provide us with any information to support this
       assertion during our audit. Further, current PPIA procedures are the same as they were
       during the date range of our sample and, therefore, the PPIA cases we reviewed were
       processed using the same procedures now used.
Recommendation 4: Establish systemic or procedural controls to prevent PPIAs from being
established without manager review or approval. The manager review should ensure that a
complete financial analysis was performed and fully documented.
       Management’s Response: IRS management agreed with this recommendation. IRS
       management will make necessary changes after they review their procedural controls to
       ensure that they adequately prevent PPIAs from being established without manager
       approval. They will also reiterate via memorandum the importance of manager review of
       the financial analysis.
Recommendation 5: Remind managers that the IRM for quality review of cases and
feedback to collection employees includes the quality and documentation of their financial
analyses and related opportunities for improvement on PPIA cases.
       Management’s Response: IRS management agreed with this recommendation and
       will remind managers via a memorandum that their review of cases should identify
       specific improvement opportunities with respect to the quality of financial analysis and
       documentation.
Recommendation 6: Request that a separate product line be created for PPIAs on the NQRS
and that campus operational reviews specifically review PPIAs as part of their review of IAs to
ensure that IRM procedures are followed.
       Management’s Response: IRS management partially agreed with this
       recommendation. To ensure that IRM procedures pertaining to PPIAs are followed, the
       IRS agreed to include PPIAs in the campus operational reviews of installment
       agreements. However, it stated that it does not have the resources required to conduct
       separate product line reviews for PPIAs on the NQRS.

                                                                                         Page 14
                                           Controls Over Partial Payment
                                     Installment Agreements Can Be Improved



           Office of Audit Comment: Although we believe a separate product line for PPIAs on
           the NQRS would also be effective in ensuring IRM procedures are followed,
           management’s planned corrective action meets the intent of the recommendation.

Partial Payment Installment Agreements Can Increase Collections on
Uncollectible Inventory
The Deputy Commissioner for Services and Enforcement chartered the Collection Process Study
(CPS)11 in order to conduct a broad-based review of the current collection processes of the IRS,
identify opportunities for improvement, and recommend specific actions that can be
implemented to improve the Collection program. The study examined all areas across the IRS
engaged in or supporting collection activities and proposed a number of policy and process
change recommendations. The recommendations have the potential for improving collection
operations and merit further study and testing. One of the recommendations was to expand the
use of PPIAs by offering a modified minimum PPIA to all individual taxpayers currently in the
uncollectible status through a letter mailing campaign notifying them of the PPIA opportunity.
This recommendation included other modifications to the PPIA process, including the following
incentives for taxpayers who enter into a PPIA:
          A reduced Failure to Pay penalty rate.
          The possibility of lien withdrawal after two years of compliance.
          Protection from collection action by the IRS during the term of the PPIA.
The CPS report went on to recommend that if a taxpayer defaults on the PPIA, the case should
return to the uncollectible status. Currently, the IRS collects refund offsets from currently not
collectible inventory. By offering a slightly modified version of the current PPIA, the IRS would
have the potential to collect some of the amount owed beyond the annual offset collected.
The CPS recommends setting a minimum monthly payment of $25 for the PPIA, which is the
minimum payment amount for current PPIAs. The IRS can include the PPIA offer letter in the
annual notice mailed to uncollectable inventory. Although we did not conduct an in-depth
analysis of the study, we did evaluate how the CPS was conducted and found it to be consistent
with Government Accountability Office best practices.
In addition, we tested the viability of the PPIA recommendation. We selected a random sample
of 265 OICs rejected between October 1, 2010, and September 30, 2011. We used rejected OIC
cases because the financial analyses were available for review. We analyzed our sample cases
based on the collection status after the OIC was rejected and determined that:



11
     IRS, Collection Process Study Final Report (Sept. 30, 2010).
                                                                                         Page 15
                                    Controls Over Partial Payment
                              Installment Agreements Can Be Improved



      13 (5 percent) of the 265 cases had already become PPIAs. We also determined that in
       10 of the 13 cases, the PPIA would collect more than had the OIC been accepted.
      55 (21 percent) of the 265 cases had already been paid in full by the taxpayer.
      180 (68 percent) of the 265 cases were still considered to be collectible and placed in the
       Queue, assigned to a revenue officer, established a regular IA, or had some other active
       collection activity.
      17 (6 percent) of the 265 cases were in an uncollectible status. For these 17 cases, we
       reviewed the information available on the Automated OIC application and ICS and
       determined that a PPIA at $25 a month could be a viable option in all 17 cases.
The CPS report recommends the IRS test this modified minimum PPIA on 2,000 taxpayers
before full implementation. Since the CPS report was issued in September 2010, the Collection
Policy function has not pursued this recommendation, and there are no specific plans to do so at
this time. We were advised that the Collection Policy function is committed to pursuing CPS
recommendations while balancing the limited resources available for testing and implementing
new initiatives with other mission critical priorities.
The IRS is losing the opportunity to expand the use of PPIAs and collect some of the delinquent
taxes owed by taxpayers in uncollectible status. Specifically, the CPS reported that the
collection potential for offering a PPIA with a minimum payment of $25 a month to the
1.2 million individual taxpayers with balance due modules closed in the uncollectible status
could be as high as $383 million annually. More conservatively, if the IRS focused only on the
230,000 individual taxpayers in the uncollectible status and classified as unable to pay,
the report estimates the collection potential could be $69 million annually. Because of the
projected monetary benefits, we believe the IRS should test the viability of this recommendation.

Recommendation
Recommendation 7: The Director, Collection Policy, Small Business/Self-Employed
Division, should implement the CPS report’s recommendation by testing the viability of
expanding the use of PPIAs on a sample of taxpayers in uncollectible status.
       Management’s Response: IRS management disagreed with this recommendation.
       They conducted two similar tests with the OIC program for taxpayers in currently not
       collectible status, which did not yield significant results; therefore, they do not believe
       implementation of this recommendation at this time would be an efficient use of their
       resources.
       Office of Audit Comment: The IRS’s tests involved taxpayers who were asked to
       consider applying for an OIC, not a PPIA. Because of the differences between the two
       Programs, we do not believe it is appropriate to draw conclusions about taxpayer

                                                                                            Page 16
                            Controls Over Partial Payment
                      Installment Agreements Can Be Improved



willingness to establish a PPIA. For example, unlike a PPIA, taxpayers entering into an
OIC may have to pay 20 percent of their offer amount before the IRS will consider their
request.




                                                                                 Page 17
                                             Controls Over Partial Payment
                                       Installment Agreements Can Be Improved



                                                                                        Appendix I

              Detailed Objective, Scope, and Methodology

  Our objective was to assess the controls over and effectiveness of the PPIA program. To
  accomplish the objective, we:
I.           Evaluated IRS policies, procedures, goals, and monitoring of the PPIA program.
             A. Reviewed IRM procedures and other guidance used in conducting PPIA evaluations.
             B. Assessed IRS corrective actions in response to TIGTA Audit Report No. 2007-30-170
                by reviewing management responses and corrective action status documents and
                evaluated whether the corrective actions were timely and effectively implemented.
      II.    Determined whether the IRS is performing proper financial verification/analysis prior to
             establishing taxpayers’ PPIAs.
             A. Obtained a computer extract from the IRS’s IDRS1 Taxpayer Information File of
                taxpayer accounts with IAs established between January 1, 2008, and July 1, 2009,
                with an Agreement Locator Number ending in “12” (indicating PPIA) as of
                October 25, 2011. We selected this time period to ensure that the cases in our sample
                would have been due for a two-year review while not including PPIAs from TIGTA’s
                prior PPIA audit.
             B. Selected a random sample of 256 PPIAs from the universe of 4,447 PPIAs obtained
                in Step II.A. We selected our sample using a confidence level of 90 percent, an
                expected error rate of 50 percent (unknown), and a precision rate of ±5 percent. We
                selected a random sample in order to project the number of cases with errors. In
                accordance with advice from our statistical sampling consultant, we reduced our
                sample size to 100 based on limited resources and the actual error rates found for the
                first 30 cases.
             C. Validated our data by selecting a subsample from the sample in Step II.B. and
                reconciled the data to Master File data using the IDRS. We determined the data were
                sufficiently reliable for this audit.
             D. For each sampled case, we reviewed the AMS or ICS information supporting the IRS
                determination to accept the PPIA. We analyzed the available information. We also:




  1
      See Appendix VI for a glossary of terms.
                                                                                               Page 18
                                   Controls Over Partial Payment
                             Installment Agreements Can Be Improved



          1. Checked the ICS and the AMS and determined that verification of income was
             properly documented and also evaluated the financial analysis conducted. For the
             exception cases for which we determined that the IRS relied on an incomplete
             financial analysis, our statistical sampling consultant projected our exception rate
             against the population of 4,447 PPIAs using a 90 percent confidence level and a
             precision rate of ± 5 percent.
          2. Checked the ICS and the AMS and ensured that management approval was
             documented for each PPIA.
          3. Checked the current status of our cases and ensured that the IRS is following
             procedures in cases involving missed PPIA payments and/or subsequent
             delinquent tax modules.
          4. For those cases in which a complete financial analysis was not conducted, we
             estimated the taxpayer’s ability to pay their delinquent tax liability. Using
             taxpayer income from the Master File and the IRS’s allowable living expense
             items, we calculated the taxpayers’ monthly disposable income available to pay
             their delinquent tax (payment amount) and compared this payment amount with
             the taxpayers’ current payment amount. When our payment amount was greater
             than the taxpayers’ current payment amount, we multiplied our payment amount
             by the remaining months on the Collection Statute Expiration Date to determine
             the amount the taxpayer could possibly pay. We subtracted the amount the IRS is
             currently going to collect to determine how much additional income the IRS could
             collect.
III.   Determined whether the IRS is performing required two-year reviews on taxpayers
       within the PPIA program.
       A. For cases in the sample from Step II.B. that originated in the field:
          1. Checked IDRS command code ENMOD for correspondence from the IRS to the
             taxpayer in the time period that the two-year review should be conducted. When
             reviewing ENMOD, we ensured that the IRS provided a 30-day follow-up letter
             should the taxpayer not have responded to the initial letter for the two-year
             review.
          2. If no taxpayer response after the 30-day follow-up was documented on the ICS or
             AMS, we ensured that default procedures were followed by reviewing ICS and
             AMS narratives.
          3. Checked IDRS IMFOLT and ensured that the taxpayer was taken out of IA status.
          4. Ensured that the two-year review was completed and documented according to
             the standards/processes identified from discussions in Steps I.A. and I.B.

                                                                                         Page 19
                            Controls Over Partial Payment
                      Installment Agreements Can Be Improved



B. For cases in the sample from Step II.B. that originated in the Automated Collection
   System or the campus:
   1. Checked the AMS for notation that a two-year review was conducted.
   2. Checked the IDRS audit trail and verified that the last two returns filed were
      accessed by the IRS.
C. For each sampled case, reviewed the AMS or ICS information supporting the IRS’s
   two-year reviews.
   1. If the IRS noted that the financial analysis indicated the taxpayer’s ability to pay
      an amount different from the existing agreement and the payment amount needs
      to be increased, ensured that these revisions to the IA were conveyed to the
      taxpayer and that the IA was revised by reviewing ENMOD.
   2. For the cases that indicated there was no change to the taxpayer’s financial
      situation, ensured that it was notated in the ICS narrative.
   3. Reviewed IMFOLT for Transaction Code 971 Action Code 174 to note if a
      two-year review was completed. Note: Transaction Code/Action Code may be
      used for a financial analysis other than a two-year review.
   4. For the exception cases for which we determined the IRS did not perform a
      complete and proper two-year review, our statistical sampling consultant
      projected our exception rate against the population of 4,447 PPIAs as of
      October 25, 2011.
   5. To compute the dollars the IRS is not collecting, we used the balance due from
      the last notice sent to the taxpayer before the PPIA was initiated. This
      information was found on IDRS’s TXMOD command code. However, TXMOD
      is only available for modules with a balance due; therefore, we used IMFOLT and
      added all entries until the PPIA was initiated for those modules that were
      satisfied.
   6. For those cases in which a proper two-year review was not conducted, we
      estimated the taxpayers’ ability to pay their delinquent tax liability. Using
      taxpayer income from the Master File and the IRS’s allowable living expense
      items, we calculated the taxpayers’ monthly disposable income available to pay
      their delinquent tax (payment amount) and compared this payment amount with
      the taxpayers’ current payment amount. When our payment amount was greater
      than the taxpayers’ current payment amount, we multiplied our payment amount
      by the remaining months on the Collection Statute Expiration Date to determine
      the amount the taxpayer could possibly pay. We subtracted the amount the IRS is


                                                                                   Page 20
                                   Controls Over Partial Payment
                             Installment Agreements Can Be Improved



              currently going to collect to determine how much additional income the IRS could
              collect.
IV.    Determined the current status of delinquent accounts of taxpayers who had an OIC
       rejected by the IRS.
       A. Selected a statistical sample of 265 cases from the universe of 11,677 OICs rejected
          between October 1, 2010, and September 30, 2011, from the Automated OIC system.
          In accordance with the advice of our statistical sampling consultant, we selected our
          sample using a confidence level of 90 percent, expected error rate of 50 percent
          (unknown), and a precision rate of ±5 percent. We selected a random sample in order
          to project the number of cases with errors.
       B. Matched the data in Step IV.A. to our Taxpayer Information File extract from
          Step II.A.
           1. Determined the current status of delinquent accounts for those taxpayers who
              were put into a PPIA after being rejected for an OIC. We also determined
              whether the PPIA was established for an amount less than the taxpayers’ proposed
              OIC amount.
           2. Determined the current status of delinquent accounts for those taxpayers who
              were not put into a PPIA after being rejected for an OIC. We also determined
              whether these cases would be good candidates for a PPIA based on the financial
              information provided by the taxpayer.
           3. We verified the reasonableness of the Automated OIC system data by reconciling
              entity information, status codes, transaction codes, action codes, and processing
              dates to Master File data used in completing Steps IV.B.1. and IV.B.2.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: the Small Business/Self-Employed
Division collection policies, procedures, and practices for appropriately establishing and
reviewing PPIAs. We evaluated these controls by interviewing management and reviewing
samples of PPIA cases.




                                                                                         Page 21
                                 Controls Over Partial Payment
                           Installment Agreements Can Be Improved



                                                                            Appendix II

                Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Augusta R. Cook, Acting Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Carl Aley, Acting Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Frank Dunleavy, Acting Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Timothy Greiner, Acting Audit Director
Beverly Tamanaha, Acting Audit Manager
Meaghan Tocco, Lead Auditor
Janis Zuika, Senior Auditor
Nicole DeBernardi, Auditor




                                                                                    Page 22
                                Controls Over Partial Payment
                          Installment Agreements Can Be Improved



                                                                  Appendix III

                        Report Distribution List

Acting Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement S
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Deputy Commissioner, Wage and Investment Division SE:W
Director, Campus Compliance Services SE:S:CCS
Director, Collection SE:S:FC
Director, Customer Account Services SE:W:CAS
Director, Account Maintenance SE:W:CAS:AM
Chief Counsel C
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
   Commissioner, Small Business/Self-Employed Division SE:S
   Commissioner, Wage and Investment Division SE:W




                                                                        Page 23
                                           Controls Over Partial Payment
                                     Installment Agreements Can Be Improved



                                                                                 Appendix IV

                                      Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
     Increased Revenue – Potential; $878,705 for 178 taxpayers who had their PPIA monthly
      payments reduced to an amount less than the financial analysis showed the taxpayers had the
      ability to pay (see page 6).

Methodology Used to Measure the Reported Benefit:
We obtained a computer extract from the IRS’s IDRS1 Taxpayer Information File of taxpayer
accounts with IAs established between January 1, 2008, and July 1, 2009, with an Agreement
Locator Number ending in “12” (indicating PPIA) as of October 25, 2011. From this population,
we reviewed a random sample of 100 PPIAs. We determined that of the 100 PPIAs, 84 required
a two-year review. ***********************************1*************************
**********************************************1*****************************
**************************************************1*************************
**********************************************1*****************************
**********************************************1*****************************
***********************************************1****************************
*********************1*******************.
******************************************2*********************************
******************************************2*******************************
*****************************************2********************************
*************2**********. We estimated that 178 taxpayers will pay $878,705 less than the
financial analysis showed they had the ability to pay. We are 90 percent confident that this
amount is between $137,716 and $1,897,564.

Type and Value of Outcome Measure:
     Increased Revenue – Potential; $345 million for a five-year period by offering a PPIA for
      $25 a month to more than 230,000 individual taxpayers deemed unable to pay (see page 15).

1
    See Appendix VI for a glossary of terms.
                                                                                          Page 24
                                    Controls Over Partial Payment
                              Installment Agreements Can Be Improved



Methodology Used to Measure the Reported Benefit:
The IRS CPS report issued in September 2010 recommended offering a modified minimum
PPIA to all individual taxpayers in uncollectible status. The modified PPIA would set a
minimum monthly payment of $25 for the PPIA, which is the minimum payment amount for
current PPIAs. The IRS can include the PPIA offer letter in the annual notice mailed to
uncollectible status inventory.
The CPS report estimates that if the IRS was to focus on the 230,000 individual taxpayers in
uncollectible status and classified as unable to pay, the collection potential could be $69 million
a year. The collection potential from the 230,000 individual taxpayers for one year was
multiplied by five to obtain a five-year projection of $345 million.




                                                                                            Page 25
                                       Controls Over Partial Payment
                                 Installment Agreements Can Be Improved



                                                                                          Appendix V
                           Financial Analysis Example
 We used the taxpayer’s monthly income amount and the IRS’s allowable living expense items to
 estimate the taxpayer’s ability to pay his or her delinquent tax liability. The allowable living
 expense items are guidelines established by the IRS to provide consistency in certain expense
 allowances such as food and household expenses, medical expenses, housing, and transportation.
 While we used maximum amounts, taxpayers can claim actual living expenses that exceed the
 maximum if they provide adequate supporting documentation. There are several allowable
 expense items that the IRS does not provide a maximum amount. For these, we assigned a
 reasonable estimate. In addition, the IRS collects certain asset information (such as bank account
 and investment balances) directly from the taxpayer. We did not include asset information in our
 estimates. The chart below shows how we performed our financial analysis. We did not contact
 the taxpayers.

   Calculation of Additional
 Amount Available for Payments           Dollars       Dollars       Summary of Allowable Expenses
  Example Taxpayer’s Annual Income       $150,000
          Taxpayer’s Monthly Income
                                          $12,500
                (Annual Income/12)
                                                         $3,321     * Standard House and Utilities Expense
                                                          $992      * Car Expenses (two cars)
                                                          $684      * Operating Costs (two cars)
                                                                    * National Standard for Food, Clothing, and
                                                         $1,152
                                                                      Other Items
                                                          $180      * Out-of-Pocket Health Costs
                                                                    ** Federal Taxes (15% estimated effective
                                                         $1,875
                                                                       tax rate)
                                                         $1,103     ** State Taxes (8.82% in taxpayer’s State)
                                                          $181      ** Medicare (1.45%)
                                                          $552      ** FICA (6.2% on first $106,800 of income)
                                                          $400      ** Health Insurance
                                                          $200      ** Secured Debt
                                                          $300      ** Child Dependent Care
      Less Total Allowable Expenses      ($10,940)      $10,940     Total Allowable Expenses
 Amount Available for PPIA Payments        $1,560
         Less Current PPIA Payment        ($1,000)
   Additional Available for Payment          $560
Source: Example analysis performed by TIGTA.
* IRS maximum allowed. ** No IRS maximum; TIGTA estimate. FICA = Federal Insurance Contributions Act.
                                                                                                    Page 26
                                    Controls Over Partial Payment
                              Installment Agreements Can Be Improved



                                                                                  Appendix VI

                                Glossary of Terms

Account Management Services – Formerly known as Desktop Integration, it is a web-based
resource which will enable campus employees to interface with various IRS systems bringing
them together into one common view. The AMS emphasizes sharing of key business data by
integrating access to many tools into a common interface.
Agreement Locator Number – A four-digit number used to identify IAs by type and originator.
The first two digits denote either “Initiator” or “Agreement Type” and the second two digits
denote whether the agreements are a PPIA, a streamlined IA, a regular IA, etc.
Area Office – A geographic organizational level used by IRS business units and offices to help
specific types of taxpayers understand and comply with tax laws and issues.
Audit Trail – A chronological record of system activities that is sufficient to permit
reconstruction, review, and examination of a transaction from inception to final results.
Automated Collection System – A telephone contact system through which telephone assistors
collect unpaid taxes and secure tax returns from delinquent taxpayers who have not complied
with previous notices.
Balance Due – A balance due occurs when the taxpayer has an outstanding liability for taxes,
penalties, or interest.
Campus – The data processing arm of the IRS. The campuses process paper and electronic
submissions, correct errors, and forward data to the computing centers for analysis and posting to
taxpayer accounts.
Collection Activity Reports – A group of reports providing management information to field
and Headquarters Collection function officials. The reports reflect activity associated with
taxpayer delinquency accounts; the issuance of taxpayer delinquency inquiries; and the issuance,
disposition, and inventories of IAs as well as collection-related payments.
Collection Field Function – The unit in the Area Offices consisting of revenue officers who
handle personal contacts with taxpayers to collect delinquent accounts or secure unfiled returns.




                                                                                            Page 27
                                    Controls Over Partial Payment
                              Installment Agreements Can Be Improved



Collection Statute Expiration Date – The time period established by law to allow the IRS to
collect taxes. The Collection Statute Expiration Date is normally 10 years from the date the tax
is assessed, as provided by Internal Revenue Code Section 6502. Once this 10-year period has
ended, the Government can no longer initiate collection action, unless the Collection Statute
Expiration Date is extended by case action, event, or agreement.
Compliance Services Collection Operations – A unit of Collection function employees in the
campuses who process balance due and nonfiler correspondence.
Currently Not Collectible – An account status that allows the account to be removed from
active inventory after necessary steps taken in the collection process have indicated that an
account receivable is currently not collectible.
Effective Tax Rate – Refers to the average rate at which an individual is taxed. An individual’s
effective tax rate is calculated by dividing total tax expense by taxable income
ENMOD – An IDRS command code that displays taxpayer’s name, address, and other entity
information.
Failure to Pay Penalty – Penalty assessed for failure to pay tax on or before the date fixed for
payment.
IDRS Command Code – A five-character abbreviation for a particular inquiry or action
requested through the IDRS. Each command code is used for a specific purpose.
IDRS Profile – Limits employee access to IDRS and is determined by each employee’s specific
need to access taxpayer data to perform his or her duties.
IMFOLT – An IDRS command code that displays various module amounts and dates along with
a list of posted transactions for the specified tax module.
Installment Agreement – Arrangements by which the IRS allows taxpayers to pay liabilities
over time.
Integrated Collection System – An information management system designed to improve
revenue collections by providing revenue officers access to the most current taxpayer
information while in the field using laptop computers for quicker case resolution and improved
customer service.
Integrated Data Retrieval System – The IRS computer system that is capable of retrieving and
updating stored taxpayer information. It works in conjunction with a taxpayer’s account records.
Lien Withdrawal – Internal Revenue Code Section 6323(j) gives the IRS the authority to
withdraw a Notice of Federal Tax Lien under certain circumstances and to provide notice of the
withdrawal to credit agencies.



                                                                                           Page 28
                                    Controls Over Partial Payment
                              Installment Agreements Can Be Improved



Master File – The IRS database that stores various types of taxpayer account information. This
database includes individual, business, and employee plans and exempt organizations data.
Module – Refers to each tax return filed by the taxpayer for a specific period (year or quarter)
during a calendar year for each type of tax.
National Quality Review System – Used by quality reviewers to capture national program
review data obtained through case reviews. The NQRS is also used to report the official
organizational business quality results.
Offer in Compromise – An agreement between a taxpayer and the IRS that settles the
taxpayer’s tax liabilities for less than the full amount owed.
Operational Review – An in-depth review and analysis of a particular program or function.
Operational reviews are conducted in the following manner: department managers review
frontline teams, operation chiefs review department managers, and Planning and Analysis
function staff review operations.
Programming Requirements Package – The instructions that define how tax returns and tax
forms can be processed to the Master File.
Queue – An automated holding file for unassigned inventory of delinquent cases for which the
Collection function does not have enough resources to immediately assign for contact.
Revenue Officer – Employees in the Collection Field function who attempt to contact taxpayers
and resolve collection matters that have not been resolved through notices sent by the IRS
campuses or the Automated Collection System.
Taxpayer Information File – IRS data that provide tax account information for certain
taxpayers (generally involving only active accounts) on the database. Balance due notices are
issued from the Taxpayer Information File.
Total Positive Income – A calculation using only total positive values for income items, e.g.,
wages, interest, Schedule C, from a tax return. Losses reported for any of these items are treated
as a zero.
Transaction Code – Three-digit codes used to identify a processed transaction and to maintain a
history of actions posted to a taxpayer’s account on the Master File.
User Fee – An amount charged to taxpayers to enter into a PPIA and to reinstate a PPIA after a
default.




                                                                                           Page 29
                Controls Over Partial Payment
          Installment Agreements Can Be Improved



                                              Appendix VII

Management’s Response to the Draft Report




                                                    Page 30
      Controls Over Partial Payment
Installment Agreements Can Be Improved




                                         Page 31
      Controls Over Partial Payment
Installment Agreements Can Be Improved




                                         Page 32
      Controls Over Partial Payment
Installment Agreements Can Be Improved




                                         Page 33
      Controls Over Partial Payment
Installment Agreements Can Be Improved




                                         Page 34
      Controls Over Partial Payment
Installment Agreements Can Be Improved




                                         Page 35
